                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106

April 4, 2012

Report Number: A-07-12-00380

Mr. Peter S. Moore
Vice President of Government Programs
GHI Medicare
25 Broadway
New York, NY 10004

Dear Mr. Moore:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Review of the Pension Costs Claimed by Group Health Incorporated
for Plan Years 1999 Through 2006. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-12-00380
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Mr. Peter S. Moore


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
 Department of Health and Human Services
               OFFICE OF


          INSPECTOR GENERAL






      REVIEW OF THE PENSION


        COSTS CLAIMED BY


   GROUP HEALTH INCORPORATED


FOR PLAN YEARS 1999 THROUGH 2006






                         Daniel R. Levinson


                          Inspector General



                             April 2012


                           A-07-12-00380


                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as


 questionable, a recommendation for the disallowance of costs


 incurred or claimed, and any other conclusions and


 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating


 divisions will make final determination on these matters.


                                  EXECUTIVE SUMMARY



BACKGROUND



Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS), which terminated July 18, 2008. GHI also administers Medicare operations
under a Coordination of Benefits (COB) contract with CMS. In addition, GHI performs
Medicare work as a subcontractor on the Retiree Drug Subsidy (RDS) contract and on the
Medicare Secondary Payer Recovery contract (MSPRC).

During our audit period, GHI had three defined benefit pension plans. This report will address
the COB, RDS, and MSPRC contracts’ pension costs (which for this report we refer to as
Medicare pension costs) claimed for the GHI Local 153 Pension Plan and the GHI Cash Balance
Pension Plan.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and the Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of Medicare pension costs that GHI claimed for
Medicare reimbursement for plan years (PY) 1999 through 2006.

SUMMARY OF FINDING

GHI did not claim $761,715 of allowable Medicare pension costs on its invoices for PYs 1999
through 2006. The underclaim occurred primarily because GHI based its claim for Medicare
reimbursement on an amount that did not comply with the provisions of CAS 412 and 413. GHI
claimed $2,640,041 of Medicare pension costs for Medicare reimbursement; however, we
determined that the allowable Medicare pension costs were $3,401,756. As a result, GHI did not
claim $761,715 of allowable Medicare pension costs during PYs 1999 through 2006.

RECOMMENDATION

We recommend that GHI revise its invoices for PYs 1999 through 2006 to increase Medicare
pension costs by $761,715.




                                                i
AUDITEE COMMENTS

In written comments on our draft report, GHI agreed with our recommendation.

GHI’s comments are included in their entirety as Appendix D.




                                              ii
                                                  TABLE OF CONTENTS



                                                                                                                                     Page

INTRODUCTION......................................................................................................................... 1



          BACKGROUND ................................................................................................................ 1


              Group Health Incorporated and Medicare .............................................................. 1


              Medicare Reimbursement ....................................................................................... 1



          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 1


               Objective ................................................................................................................. 1


               Scope....................................................................................................................... 1


               Methodology........................................................................................................... 2



FINDING AND RECOMMENDATION.................................................................................... 2



          FEDERAL REQUIREMENTS........................................................................................... 3



          ALLOWABLE PENSION COSTS NOT CLAIMED........................................................ 3



          RECOMMENDATION ...................................................................................................... 4



          AUDITEE COMMENTS.................................................................................................... 4



APPENDIXES

    A:		 ALLOCABLE MEDICARE PENSION COSTS FOR THE


         LOCAL 153 PENSION PLAN FOR GROUP HEALTH INCORPORATED


         FOR PLAN YEARS 1999 THROUGH 2006



    B:		 ALLOCABLE MEDICARE PENSION COSTS FOR THE


         CASH BALANCE PENSION PLAN FOR GROUP HEALTH INCORPORATED


         FOR PLAN YEARS 2003 THROUGH 2006



    C:		 ALLOWABLE MEDICARE PENSION COSTS


         FOR GROUP HEALTH INCORPORATED FOR


         PLAN YEARS 1999 THROUGH 2006



    D:		 AUDITEE COMMENTS




                                                                     iii
                                               INTRODUCTION



BACKGROUND

Group Health Incorporated and Medicare

Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS), which terminated July 18, 2008. 1 As of November 1, 1999, GHI also
administers Medicare operations under a Coordination of Benefits (COB) contract with CMS.
In addition, GHI performs Medicare work as a subcontractor on the Retiree Drug Subsidy (RDS)
contract and on the Medicare Secondary Payer Recovery contract (MSPRC) as of
February 17, 2005, and August 15, 2006, respectively.

During our audit period, GHI had three defined benefit pension plans: the GHI Local 153
Pension Plan, the GHI Cash Balance Pension Plan, and the EmblemHealth Services Company,
LLC, Employees’ Retirement Plan. Medicare segment employees participated in all three
defined benefit pension plans. This report will address the COB, RDS, and MSPRC contracts’
Medicare pension costs claimed for the GHI Local 153 Pension Plan and the GHI Cash Balance
Pension Plan. 2

Medicare Reimbursement

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of Medicare pension costs that GHI claimed for
Medicare reimbursement for plan years (PY) 1999 through 2006.

Scope

We reviewed $2,640,041 of Medicare pension costs that GHI claimed for Medicare
reimbursement on its invoices for PYs 1999 through 2006. Achieving our objective did not
require that we review GHI’s overall internal control structure. We limited our review to the
internal controls related to the pension costs claimed for Medicare reimbursement to ensure that


1
    We reviewed the allowability of the Medicare Part B pension costs in a separate audit of GHI (A-07-12-00379).
2
  Unless otherwise noted, all subsequent references to Medicare pension costs and reimbursement in the body of this
report relate to the COB, RDS, and MSRPC’s Medicare pension costs.


                                                          1


the pension costs were allocable in accordance with the CAS and allowable in accordance with
the FAR.

We performed fieldwork at GHI in New York, New York, during September 2008 and
July 2010.

Methodology

We reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit. We
identified the amount of pension costs claimed for Medicare reimbursement for PYs 1999
through 2006 by reviewing GHI’s invoices and other information from its accounting systems.
We also determined the extent to which GHI funded CAS-based pension costs with contributions
to the pension trust fund and accumulated prepayment credits.

We based our calculations of allowable pension costs on CMS Office of the Actuary’s (OACT)
computation of CAS-based pension costs for the Medicare segment and the “Other” segment.
OACT separately computed each segment’s CAS-based pension costs. OACT based its
computations on GHI’s historical practices and on the results of our review of GHI’s pension
segmentation requirements for both of the pension plans—the Local 153 Pension Plan for the
period April 1, 1987, to January 1, 2009 (A-07-11-00358) and the GHI Cash Balance Pension
Plan for the period September 1, 2003, to January 1, 2009 (A-07-12-00374)—and on our reviews
of GHI’s unfunded pension costs for the Local 153 Pension Plan for PYs 1987 through 2007
(A-07-12-00375), and for the GHI Cash Balance Pension Plan for PYs 2003 through 2007
(A-07-12-00376).

In performing our review, we used information that GHI’s actuarial consulting firms provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined GHI’s accounting records,
pension plan documents, annual actuarial valuation reports, and Department of Labor/Internal
Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATION

GHI did not claim $761,715 of allowable Medicare pension costs on its invoices for PYs 1999
through 2006. The underclaim occurred primarily because GHI based its claim for Medicare
reimbursement on an amount that did not comply with the provisions of CAS 412 and 413. GHI
claimed $2,640,041 of Medicare pension costs for Medicare reimbursement; however, we
determined that the allowable Medicare pension costs were $3,401,756. As a result, GHI did not
claim $761,715 of allowable Medicare pension costs during PYs 1999 through 2006.




                                               2


FEDERAL REQUIREMENTS

The GHI Medicare contracts require GHI to submit invoices in accordance with FAR 52.216-7,
“Allowable Cost & Payment.” Furthermore, FAR 52.216-7(a)(1) addresses the invoicing
requirements and the allowability of payments as determined by the Contracting Officer in
accordance with FAR Subpart 31.2.

FAR 31.205-6(j) requires contractors to measure, assign, and allocate the costs of all defined-
benefit pension plans in compliance with CAS 412 and 413. FAR 31.205-6(j) also addresses
allowability of pension costs by requiring that plan contributions substantiate pension costs
assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

GHI did not claim $761,715 of Medicare pension costs that were allowable for Medicare
reimbursement for PYs 1999 through 2006. For that period, GHI claimed Medicare pension
costs of $2,640,041 for Medicare reimbursement. We calculated the allowable pension costs
based on separately computed CAS-based pension costs for the Medicare segment and the
“Other” segment in accordance with CAS 412 and 413. Based on the terms of the Medicare
contract, the allowable Medicare CAS-based pension costs for PYs 1999 through 2006 were
$3,401,756.

The table on the following page compares allowable Medicare CAS-based pension costs with the
Medicare pension costs claimed on GHI’s invoices. Appendix C contains additional details on
allowable Medicare pension costs.




                                                3


 Comparison of Allowable Medicare Pension Costs and Claimed Medicare Pension Costs

                                          Medicare
                                        Pension Costs
                                   Allowable Claimed by
                    Plan Year      Per Audit      GHI          Difference
                       1999                $0          $28           ($28)
                       2000            52,773       32,359         20,414
                       2001            99,032       52,325         46,707
                       2002           119,082      118,800             282
                       2003           243,988      140,595        103,393
                       2004           728,596      162,985        565,611
                       2005           923,256      778,433        144,823
                       2006         1,235,029    1,354,516      (119,487)
                      Total        $3,401,756 $2,640,041         $761,715

The Medicare contracts require GHI to calculate pension costs for Medicare reimbursement in
accordance with the provisions of CAS 412 and 413. However, GHI based its claim for
Medicare reimbursement on an amount that did not comply with the provisions of CAS 412 and
413. As a result, GHI did not claim $761,715 of allowable Medicare pension costs.

RECOMMENDATION

We recommend that GHI revise its invoices for PYs 1999 through 2006 to increase Medicare
pension costs by $761,715.

AUDITEE COMMENTS

In written comments on our draft report, GHI agreed with our recommendation.

GHI’s comments are included in their entirety as Appendix D.




                                              4


APPENDIXES


              APPENDIX A: ALLOCABLE MEDICARE PENSION COSTS FOR THE                      Page 1 of 3
              LOCAL 153 PENSION PLAN FOR GROUP HEALTH INCORPORATED
                          FOR PLAN YEARS 1999 THROUGH 2006

                                                       Total        “Other”       Medicare
     Date                  Description                Company       Segment       Segment

     1999         Contributions                  1/   $2,741,584    $2,741,584           $0
    8.50%         Discount for Interest          2/    ($198,176)    ($198,176)          $0
January 1, 1999   Present Value Contributions    3/   $2,543,408    $2,543,408           $0
                  Prepayment Credit Applied      4/         $221          $221           $0
                  Present Value of Funding       5/   $2,543,629    $2,543,629           $0

January 1, 1999   CAS Funding Target             6/   $2,645,607    $2,645,607           $0
                  Percentage Funded              7/                     96.15%        0.00%
                  Funded Pension Cost            8/                 $2,543,751           $0
                  Allowable Interest             9/                   $153,142           $0
     1999         Allocable Pension Cost        10/                 $2,696,893           $0

     2000         Contributions                       $3,361,467    $3,361,467           $0
    8.50%         Discount for Interest                ($247,303)    ($247,303)          $0
January 1, 2000   Present Value Contributions         $3,114,164    $3,114,164           $0
                  Prepayment Credit Applied                   $0            $0           $0
                  Present Value of Funding            $3,114,164    $3,114,164           $0

January 1, 2000   CAS Funding Target                  $3,111,009    $3,111,009           $0
                  Percentage Funded                                    100.00%        0.00%
                  Funded Pension Cost                               $3,111,009           $0
                  Allowable Interest                                  $187,309           $0
     2000         Allocable Pension Cost                            $3,298,318           $0

     2001         Contributions                       $4,461,143    $4,461,143           $0
    8.50%         Discount for Interest                ($272,498)    ($272,498)          $0
January 1, 2001   Present Value Contributions         $4,188,645    $4,188,645           $0
                  Prepayment Credit Applied               $3,423        $3,423           $0
                  Present Value of Funding            $4,192,068    $4,192,068           $0

January 1, 2001   CAS Funding Target                  $4,115,076    $4,115,076           $0
                  Percentage Funded                                    100.00%        0.00%
                  Funded Pension Cost                               $4,115,076           $0
                  Allowable Interest                                  $247,556           $0
     2001         Allocable Pension Cost                            $4,362,632           $0

     2002         Contributions                       $5,859,236    $5,859,236           $0
    8.50%         Discount for Interest                ($340,087)    ($340,087)          $0
January 1, 2002   Present Value Contributions         $5,519,149    $5,519,149           $0
                  Prepayment Credit Applied              $83,536       $83,536           $0
                  Present Value of Funding            $5,602,685    $5,602,685           $0

January 1, 2002   CAS Funding Target                  $5,483,754    $5,483,754           $0
                  Percentage Funded                                    100.00%        0.00%
                  Funded Pension Cost                               $5,483,754           $0
                  Allowable Interest                                  $325,138           $0
     2002         Allocable Pension Cost                            $5,808,892           $0
                                                                                    Page 2 of 3


                                                 Total         “Other”        Medicare
     Date                  Description          Company        Segment        Segment

     2003         Contributions                  $7,664,540     $7,664,540           $0
    8.25%         Discount for Interest           ($428,754)     ($428,754)          $0
January 1, 2003   Present Value Contributions    $7,235,786     $7,235,786           $0
                  Prepayment Credit Applied        $129,040       $129,040           $0
                  Present Value of Funding       $7,364,826     $7,364,826           $0

January 1, 2003   CAS Funding Target             $8,230,907     $8,230,907           $0
                  Percentage Funded                                 89.48%        0.00%
                  Funded Pension Cost                           $7,365,016           $0
                  Allowable Interest                              $422,852           $0
     2003         Allocable Pension Cost                        $7,787,868           $0

     2004         Contributions                 $26,765,678    $26,363,666     $402,012
    8.25%         Discount for Interest         ($1,844,662)   ($1,816,956)    ($27,706)
January 1, 2004   Present Value Contributions   $24,921,016    $24,546,710     $374,306
                  Prepayment Credit Applied              $0             $0           $0
                  Present Value of Funding      $24,921,016    $24,546,710     $374,306

January 1, 2004   CAS Funding Target             $8,044,606     $7,670,300     $374,306
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                           $7,670,300     $374,306
                  Allowable Interest                              $448,233      $21,874
     2004         Allocable Pension Cost                        $8,118,533     $396,180

     2005         Contributions                  $6,000,000     $6,000,000           $0
    8.25%         Discount for Interest           ($457,275)     ($457,275)          $0
January 1, 2005   Present Value Contributions    $5,542,725     $5,542,725           $0
                  Prepayment Credit Applied      $7,757,042     $7,248,219     $508,823
                  Present Value of Funding      $13,299,767    $12,790,944     $508,823

January 1, 2005   CAS Funding Target             $7,757,042     $7,248,219     $508,823
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                           $7,248,219     $508,823
                  Allowable Interest                                    $0           $0
     2005         Allocable Pension Cost                        $7,248,219     $508,823

     2006         Contributions                  $4,174,556     $4,174,556           $0
    8.25%         Discount for Interest           ($318,153)     ($318,153)          $0
January 1, 2006   Present Value Contributions    $3,856,403     $3,856,403           $0
                  Prepayment Credit Applied      $6,787,383     $5,879,966     $907,417
                  Present Value of Funding      $10,643,786     $9,736,369     $907,417

January 1, 2006   CAS Funding Target             $6,787,383     $5,879,966     $907,417
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                           $5,879,966     $907,417
                  Allowable Interest                                    $0           $0
     2006         Allocable Pension Cost                        $5,879,966     $907,417
                                                                                                                   Page 3 of 3


ENDNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 

    5500 reports. The contributions included deposits made during the plan year and accrued contributions 

    deposited after the end of the plan year but within the time allowed for filing tax returns. We determined the 

    contributions allocated to the Medicare segment during the pension segmentation reviews (A-07-11-00358, 

    A-07-12-00374, and A-07-12-00378). The amounts shown for the “Other” segment represent the difference 

    between the Total Company and the Medicare segment.


 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation
    year to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we
    computed the interest as the difference between the present value of contributions (at the valuation interest rate)
    and actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to
    the first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan
    year to have been made on the final day of the plan year, consistent with the method mandated by the Employee
    Retirement Income Security Act.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). 

    A prepayment credit is created when contributions, plus interest, exceed the end-of-year Cost Accounting 

    Standards (CAS) funding target. A prepayment credit is carried forward, with interest, to fund future CAS 

    pension costs.



 5/ The present value of funding represents the present value of contributions plus prepayment credits. This is the
    amount of funding that is available to cover the CAS funding target measured at the first day of the plan year.

 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement
    of the Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the
    plan year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in
    accordance with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed
    the percentage funded as the present value of funding divided by the CAS funding target. For purposes of
    illustration, the percentage of funding has been rounded to four decimals.

 8/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same
    proportion as the interest on contributions bears to the present value of contributions. However, we limited the
    interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the
    interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal
    installments deposited within 30 days after the end of the quarter.

10/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.
               APPENDIX B: ALLOCABLE MEDICARE PENSION COSTS FOR THE                     Page 1 of 2
             CASH BALANCE PENSION PLAN FOR GROUP HEALTH INCORPORATED
                          FOR PLAN YEARS 2003 THROUGH 2006

                                                         Total        “Other”       Medicare
      Date                   Description                Company       Segment       Segment

      2003          Contributions                  1/   $1,200,000    $1,098,769     $101,231
     8.00%          Discount for Interest          2/     ($88,889)     ($81,390)     ($7,499)
September 1, 2003   Present Value Contributions    3/   $1,111,111    $1,017,379      $93,732
                    Prepayment Credit Applied                   $0            $0           $0
                    Present Value of Funding       4/   $1,111,111    $1,017,379      $93,732

September 1, 2003   CAS Funding Target             5/     $906,321      $807,654      $98,667
                    Percentage Funded              6/                    100.00%       95.00%
                    Funded Pension Cost            7/                   $807,654      $93,734
                    Allowable Interest             8/                    $45,767       $5,312
      2003          Allocable Pension Cost         9/                   $853,421      $99,046

      2004          Contributions                       $2,804,772    $2,494,658     $310,114
     7.50%          Discount for Interest                ($195,682)    ($174,046)    ($21,636)
 January 1, 2004    Present Value Contributions         $2,609,090    $2,320,612     $288,478
                    Prepayment Credit Applied     10/     $270,128      $240,261      $29,867
                    Present Value of Funding            $2,879,218    $2,560,873     $318,345

 January 1, 2004    CAS Funding Target                  $2,887,566    $2,568,298     $319,268
                    Percentage Funded                                     99.71%       99.71%
                    Funded Pension Cost                               $2,560,850     $318,342
                    Allowable Interest                                  $123,281      $15,325
      2004          Allocable Pension Cost                            $2,684,131     $333,667

      2005          Contributions                       $3,134,294    $2,775,009     $359,285
     7.50%          Discount for Interest                ($218,672)    ($193,606)    ($25,066)
 January 1, 2005    Present Value Contributions         $2,915,622    $2,581,403     $334,219
                    Prepayment Credit Applied                   $0            $0           $0
                    Present Value of Funding            $2,915,622    $2,581,403     $334,219

 January 1, 2005    CAS Funding Target                  $2,909,452    $2,575,233     $334,219
                    Percentage Funded                                    100.00%      100.00%
                    Funded Pension Cost                               $2,575,233     $334,219
                    Allowable Interest                                  $136,809      $17,755
      2005          Allocable Pension Cost                            $2,712,042     $351,974

      2006          Contributions                       $3,134,296    $2,786,950     $347,346
     7.50%          Discount for Interest                ($140,016)    ($124,499)    ($15,517)
 January 1, 2006    Present Value Contributions         $2,994,280    $2,662,451     $331,829
                    Prepayment Credit Applied               $6,633        $5,857         $776
                    Present Value of Funding            $3,000,913    $2,668,308     $332,605

 January 1, 2006    CAS Funding Target                  $2,843,012    $2,510,407     $332,605
                    Percentage Funded                                    100.00%      100.00%
                    Funded Pension Cost                               $2,510,407     $332,605
                    Allowable Interest                                  $117,115      $15,517
      2006          Allocable Pension Cost                            $2,627,522     $348,122
                                                                                                                     Page 2 of 2
ENDNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500
    reports. The contributions included deposits made during the plan year and accrued contributions deposited after
    the end of the plan year but within the time allowed for filing tax returns. We determined the contributions
    allocated to the Medicare segment during the pension segmentation reviews (A-07-11-00358, A-07-12-00374, and
    A-07-12-00378). The amounts shown for the “Other” segment represent the difference between the Total Company
    and the Medicare segment.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year
    to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we
    computed the interest as the difference between the present value of contributions (at the valuation interest rate) and
    actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the
    first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year to
    have been made on the final day of the plan year, consistent with the method mandated by the Employee Retirement
    Income Security Act.

 4/ The present value of funding represents the present value of contributions plus prepayment credits. This is the 

    amount of funding that is available to cover the Cost Accounting Standards (CAS) funding target measured at the 

    first day of the plan year.


 5/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the
    Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 6/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the
    plan year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in accordance
    with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed the percentage
    funded as the present value of funding divided by the CAS funding target. For purposes of illustration, the
    percentage of funding has been rounded to four decimals.

 7/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

 8/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same 

    proportion as the interest on contributions bears to the present value of contributions. However, we limited the 

    interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the 

    interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal 

    installments deposited within 30 days after the end of the quarter. 


 9/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

10/ A prepayment credit represents the accumulated value of premature funding from the previous year(s).
    A prepayment credit is created when contributions, plus interest, exceed the end-of-year CAS funding target.
    A prepayment credit is carried forward, with interest, to fund future CAS pension costs.
                          APPENDIX C: ALLOWABLE MEDICARE PENSION COSTS                                      Page 1 of 3
                  FOR GROUP HEALTH INCORPORATED FOR PLAN YEARS 1999 THROUGH 2006

                                                                               “Other”      Medicare    Total
     Date                              Description                             Segment      Segment

January 1, 1999    Local 153 Pension Plan Allocable Pension Cost          1/   $2,696,893          $0

                   Total PY* Allocable Pension Cost                       2/   $2,696,893          $0

                   Coordination of Benefits LOB** Percentage              3/        0.00%       0.47%

     1999          PY* Coordination of Benefits Allowable Pension Costs   4/          $0           $0           $0

     1999          Total PY* Allowable Pension Costs                                  $0           $0           $0




January 1, 2000    Local 153 Pension Plan Allocable Pension Cost               $3,298,318          $0

                   Total PY* Allocable Pension Cost                            $3,298,318          $0

                   Coordination of Benefits LOB** Percentage                        1.60%      34.80%

     2000          PY* Coordination of Benefits Allowable Pension Costs          $52,773           $0    $52,773

     2000          Total PY* Allowable Pension Costs                      5/     $52,773           $0    $52,773




January 1, 2001    Local 153 Pension Plan Allocable Pension Cost               $4,362,632          $0

                   Total PY* Allocable Pension Cost                            $4,362,632          $0

                   Coordination of Benefits LOB** Percentage                        2.27%      64.46%

     2001          PY* Coordination of Benefits Allowable Pension Costs          $99,032           $0    $99,032

     2001          Total PY* Allowable Pension Costs                             $99,032           $0    $99,032




January 1, 2002    Local 153 Pension Plan Allocable Pension Cost               $5,808,892          $0

                   Total PY* Allocable Pension Cost                            $5,808,892          $0

                   Coordination of Benefits LOB** Percentage                        2.05%      67.71%

     2002          PY* Coordination of Benefits Allowable Pension Costs         $119,082           $0   $119,082

     2002          Total PY* Allowable Pension Costs                            $119,082           $0   $119,082




January 1, 2003    Local 153 Pension Plan Allocable Pension Cost               $7,787,868          $0
                   Cash Balance Pension Plan Allocable Pension Cost       6/     $853,421     $99,046

                   Total PY* Allocable Pension Cost                            $8,641,289     $99,046

                   Coordination of Benefits LOB** Percentage                        1.99%      72.72%

     2003          PY* Coordination of Benefits Allowable Pension Costs         $171,962      $72,026   $243,988

     2003          Total PY* Allowable Pension Costs                            $171,962      $72,026   $243,988
                                                                                                                   Page 2 of 3


                                                                                   “Other”      Medicare      Total
     Date                                Description                               Segment      Segment

January 1, 2004      Local 153 Pension Plan Allocable Pension Cost                 $8,118,533    $396,180
                     Cash Balance Pension Plan Allocable Pension Cost              $2,684,131    $333,667

                     Total PY* Allocable Pension Cost                             $10,802,664    $729,847

                     Coordination of Benefits LOB** Percentage                          2.07%      69.19%

     2004            PY* Coordination of Benefits Allowable Pension Costs           $223,615     $504,981     $728,596

     2004            Total PY* Allowable Pension Costs                              $223,615     $504,981     $728,596




January 1, 2005      Local 153 Pension Plan Allocable Pension Cost                 $7,248,219    $508,823
                     Cash Balance Pension Plan Allocable Pension Cost              $2,712,042    $351,974

                     Total PY* Allocable Pension Cost                              $9,960,261    $860,797

                     Coordination of Benefits LOB** Percentage                          2.68%      68.84%
                     Retiree Drug Subsidy LOB** Percentage                   7/         0.22%       4.86%

     2005            PY* Coordination of Benefits Allowable Pension Costs           $266,935     $592,573     $859,508
     2005            PY* Retiree Drug Subsidy Allowable Pension Costs        8/      $21,913      $41,835      $63,748

     2005            Total PY* Allowable Pension Costs                              $288,848     $634,408     $923,256




January 1, 2006      Local 153 Pension Plan Allocable Pension Cost                 $5,879,966    $907,417
                     Cash Balance Pension Plan Allocable Pension Cost              $2,627,522    $348,122

                     Total PY* Allocable Pension Cost                              $8,507,488   $1,255,539

                     Coordination of Benefits LOB** Percentage                          3.49%      65.04%
                     Retiree Drug Subsidy LOB** Percentage                              0.32%       5.83%
                     Medicare Secondary Payer Recovery Contract LOB**
                     Percentage                                              9/         0.00%        1.68%

     2006            PY* Coordination of Benefits Allowable Pension Costs           $296,911     $816,603    $1,113,514
     2006            PY* Retiree Drug Subsidy Allowable Pension Costs                $27,224      $73,198      $100,422
     2006            PY*Medicare Secondary Payer Recovery Contract
                     Allowable Pension Costs                                10/           $0      $21,093      $21,093

     2006            Total PY* Allowable Pension Costs                              $324,135     $910,894    $1,235,029


  *Plan Year
**Line of Business
                                                                                                                                 Page 3 of 3


ENDNOTES

 1/ The allocable Cost Accounting Standards (CAS) pension costs is the amount of pension cost that may be allocated for contract 

    cost purposes. The calculation of the Local 153 Pension Plan allocable pension cost appears in Appendix A.



 2/ The total plan year (PY) allocable pension costs is the total of the segments’ costs from each pension plan.

 3/ We calculated the Coordination of Benefits (COB) contract’s allowable pension costs of the Medicare and “Other” segments based
    on the COB Medicare line of business (LOB) percentage of each segment. We determined the COB LOB percentages based upon
    information provided by Group Health Incorporated (GHI).

 4/ We computed the allowable COB Medicare pension cost as the PY pension cost multiplied by the COB Medicare LOB percentage.
    Pursuant to CAS 412 and 413, the total COB Medicare allowable pension costs charged to the Medicare contract consisted of the
    Medicare segment’s direct pension costs plus “Other” segment pension costs attributable to indirect Medicare operations.

 5/ The total PY allowable pension costs are the sum of the allowable pension costs from each current contract.

 6/ The allocable CAS pension costs is the amount of pension cost that may be allocated for contract cost purposes. The calculation 

    of the GHI Cash Balance Pension Plan allocable pension cost appears in Appendix B.


 7/ We calculated the Retiree Drug Subsidy (RDS) contract’s allowable pension costs of the Medicare and “Other” segments based on
    the RDS Medicare LOB percentage of each segment. We determined the RDS LOB percentages based upon information provided
    by GHI.
 8/ We computed the allowable RDS Medicare pension cost as the PY pension cost multiplied by the RDS Medicare LOB percentage.
    Pursuant to CAS 412 and 413, the total RDS Medicare allowable pension costs charged to the Medicare contract consisted of the
    Medicare segment’s direct pension costs plus “Other” segment pension costs attributable to indirect Medicare operations.

 9/ We calculated the Medicare Secondary Payer Recovery Contract’s (MSPRC) allowable pension costs of the Medicare and “Other”
    segments based on the MSPRC Medicare LOB percentage of each segment. We determined the MSPRC LOB percentages based
    upon information provided by GHI.

10/ We computed the allowable MSPRC Medicare pension cost as the PY pension cost multiplied by the MSPRC Medicare LOB
    percentage. Pursuant to CAS 412 and 413, the total MSPRC Medicare allowable pension costs charged to the Medicare contract
    consisted of the Medicare segment’s direct pension costs plus “Other” segment pension costs attributable to indirect Medicare
    operations.
                 APPENDIX D: AUDITEE COMMENTS 





GHI
February 17,2012

Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Office oflnspector General
Office of Audit Services
Region VII
601 East 121h Street, Room 0429
Kansas City, Missouri 64106


       Re:     OJG Report Number: A-07-12-00380
               Review of Me11icare Part B Pension Costs Claimed by Group Health Incorporated for
               Plan Years 1999through 2006.


Dear Mr. Cogley:


This response is in regard to the subject report. GHI and its actuaries have carefully reviewed the report
and supporting work papers. As recommended by the OIG, GHI agrees to revise its invoices for Plan
Years 1999 through 2006 to increase Medicare pension costs by $761,715.


Please let me know if you have any questions regarding this letter.




(;?~~
PeterS. Moore
Vice President



                                  Group Health, l11corporated
                              25 Broadway, New York, NY 10004-1010
                                      www.ghimedicare.com
